No. 21In the Supreme Court of the United States

Angela W. DeBose, PETITIONER

I! Ill

v.
University of South Florida Board of Trustees, Respondent.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

ANGELA W. DEBOSE
Petitioner Pro Se
1107 West Kirby Street
Tampa, FL 33604
(813) 230-3023
awdebose@aol.com

filed
FEB 0 6 2021
j>UPREEMEFCOURTLngK j

1.

QUESTIONS PRESENTED
1. Whether a Rule 42 consolidation can deprive a
party of a substantive right—the right to an
appeal from a final judgment—when the Rules
Enabling Act prohibits the federal rules from
abridging or modifying a party’s rights.
2. Whether the Eleventh Circuit erred in holding
the denial of a pro se litigant’s right to self­
representation and to testify at trial as the type
of due process constitutional rights errors in
which the harmless error standard could apply.
3. Whether a verdict winner must file a timely
motion for a new trial after entry of judgment in
order to raise new-trial arguments and preserve
a sufficiency-of-the-evidence challenge on appeal,
after both parties moved for judgment as a
matter of law under Rule 50(a) before submission
of the case to the jury, but only the opposing
party renewed that motion under Rule 50(b) after
the jury’s verdict, and was granted JMOL and a
conditional new trial, but the original prevailing
party was denied a new trial under Rule 59.

11.

PARTIES TO THE PROCEEDING
Petitioner Angela DeBose was the plaintiff-appellant below.
Respondent University of South Florida Board of Trustees (“USFBOT”) was
the defendant-appellee below.
Ellucian, L.P. (“Ellucian”) was a defendant-appellee below. However, plaintiff
and Ellucian jointly moved the Eleventh Circuit Court for a stipulation of dismissal
against Ellucian as a party, which was granted. Therefore, Ellucian is not a party to
the instant petition.

m.
TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED

1

INTERESTED PARTIES

n

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

2

STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE PETITION

13

I.

13

Issue 1 - Substantive Right to an Appeal

II. Issue 2 - Denial of Right to Self-Representation

16

A. Structural Errors Demand Reversal

16

B. The Jury Verdict Finding Petitioner
Established But-For Causation was
Reasonable and Unanimous............

17

C. The Misapplication of Law was Harmful...,

21

III. Issue 3 - Preservation of Right to a New Trial
and to Raise Sufficiency of the Evidence
Challenges...........................................................
CONCLUSION

26
30

IV.

APPENDIX
Unpublished Judgment affirming district court
U.S. Court of Appeals
for the Eleventh Circuit
entered April 27, 2020...............................

A-l

Published Judgment affirming district court
U.S. Court of Appeals
for the Eleventh Circuit
entered April 27, 2020..........................

A-2

Order denying Petition for Rehearing
and Rehearing Enbanc
U.S. Court of Appeals
for the Eleventh Circuit
entered September 10, 2020.....

A-3

Order accepting a separate Reply Brief
from Appellant for Appeal No. 19-10865
U.S. Court of Appeals
for the Eleventh Circuit
entered January 20, 2020............

A-4

Order consolidating appeals
U.S. Court of Appeals
For the Eleventh Circuit
entered June 3, 2019.....

A-5

Order denying Petitioner’s Motion for New Trial
U.S. District Court
of the Middle District Court of Florida
entered April 24, 2019................................ . A-6
Order Denying Attorney Fees and Front Pay
U.S. District Court
of the Middle District Court of Florida
entered February 15, 2019....................

A-7

V.

Second Amended Judgment
overturning the jury verdict
U.S. District Court
of the Middle District Court of Florida
entered February 15, 2019...................

A-8

Order granting Appellee’s JMOL
and Conditional New Trial
U.S. District Court
of the Middle District Court of Florida
entered February 14, 2019...................

A-9

Bill of Costs Taxed by Clerk
U.S. District Court
of the Middle District Court of Florida
entered November 21, 2018.................

A-ll

Order Attorney Fees and Costs
U.S. District Court
of the Middle District Court of Florida
entered October 19, 2018.....................

A-12

Amended Judgment on the jury verdict
U.S. District Court
of the Middle District Court of Florida
entered October 5, 2018........................

A-13

Judgment (Summary Judgment) Ellucian
U.S. District Court
of the Middle District Court of Florida
entered October 2, 2018........................

A-14

Judgment (Summary Judgment) and on the jury verdict
U.S. District Court
of the Middle District Court of Florida
entered October 2, 2018
A-15
Verdict Form
U.S. District Court
of the Middle District Court of Florida
entered September 26, 2018................

A-16

VI.

Unpublished Order & Opinion Summary Judgment
U.S. District Court
of the Middle District Court of Florida
entered September 29, 2017
A-17
Published Order and Opinion at Summary Judgment
U.S. District Court
of the Middle District Court of Florida
entered September 29, 2017
A-18

Vll.

TABLE OF AUTHORITIES
PAGE
CASES
Allen v. Tyson Foods, Inc.,
121 F.3d 642 (11th Cir. 1997)

12

Anderson v. Liberty Lobby, Inc.,
All U.S. 242 (1986).........

21

Arizona v. Fulminante,
499 U.S. 279 (1991)

17

Bhogaita v. Altamonte Heights Condo. Ass’n, Inc.
765 F.3d 1277 (11th Cir. 2014).................

20

Booth v. Pasco Cnty., Fla.,
757 F.3d 1198 (11th Cir. 2014)

19

Bostwick v. Brinkerhoff,
106 U.S. 3 (1882).

14

Brown v. Crawford,
906 F.2d 667 (11th Cir. 1990)

12

Burlington Industries, Inc. v. Ellerth,
524 U.S. 742 (1998)..................

9

Burlington N. & Santa Fe Ry. Co. v. White,
548 U.S. 53 (2006)..............................

18

Catlin v. United States,
324 U.S. 229 (1945)

14

Clark Cnty. Sch. Dist. v. Breeden,
532 U.S. 268 (2001)............

18

Costa v. Desert Place, Inc.,
299 F.3d 838 (9th Cir. 2002)

21

vm.
Cottle v. Storer Communication, Inc.,
849 F.2d 570 (11th Cir. 1988)..

21

DeBose u. Univ. ofS. Fla. Bd. OfTrs.,
Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017)....

1

DeBose v. USF Bd. OfTrs.,
No. 18-14637 (11th Cir. Apr. 27, 2020)

1

Dixon v. Gonzales,
481 F.3d 324 (6th Cir. 2007)

10

Drago v. Jenne,
453 F.3d 1301 (11th Cir. 2006)

18

Fabela v. Socorro Indep. Sch. Dist.,
329 F.3d 409 (5th Cir. 2003).

9

Farrell v. Planters Lifesavers Co.,
55 206 F.3d 271 (3d Cir. 2000)

19

Federick v. Sprint /United Management Co.,
246 F. 3d 1305 (11th Cir. 2001)..........

9

Frieze v. Boatmen's Bank of Belton,
950 F.2d 538 (8th Cir. 1991).

29

Gilbrook v. City of Westminster,
177 F.3d 839 (9th Cir. 1999)

21

Gordon v. NY City Bd of Educ.,
232 F.3d 111 (2d Cir. 2000)

7

Hall v. Hall,
138 S. Ct. 1118 (2018)

13, 14

Hofkin v. Provident Life Accident Ins. Co.,
81 F.3d 365 (3d Cir. 1996)...............

29

Ike v. Kroger Co.,
248 Ga. App. 531 (Ga. Ct. App. 2001)

21

IX.

Jensen v. Potter,
435 3d 444 (3d Cir. 2006)

8

Johnson v. Booker T. Washington Broad Serv., Inc.,
234 F. 3d 501 (11th Cir. 2000)........................

9

Johnson v. Manhattan Ry. Co.,
289 U.S. 479 (1933).......

14

Johnson v. New York, New Haven & Hartford R.R.,
344 U.S. 48 (1952)............................................

29

Johnson v. Paradise Valley Unified Sch. Dist.,
251 F.3d 1222 (9th Cir.2001).................

20

Malcolm v. Nat’l Gypsum Co.,
995 F.2d 346 (2d Cir. 1993)

16

Marsh v. Illinois Central Rail Co.,
175 F.2d 498 (5th Cir. 1949)

28

Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574 (1986)........................................

12

McGuire v. City of Springfield, III.,
280 F.3d 794 (7th Cir.2002).

10

Miranda v. B & B Cash Grocery Store, Inc.,
975 F.2d 1518 (11th Cir. 1992)..........

18

Mogenhan v. Napolitano,
613 F.3d 1162 (D.C. Cir. 2010)

8

Montgomery Ward Co. v. Duncan,
311 U.S. 243 (1940)............

28

Pillow v. Bechtel Const., Inc.,
201 F.3d 1348 (11th Cir. 2000)

15

Rabun v. Kimberly-Clark Corp.,
678 F.2d 1053 (11th Cir. 1982)

28

X.

Rankin v. Evans,
133 F.3d 1425 (11th Cir. 1998)

17

Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000)............................

20, 21

Rojas v. Florida,
285 F.3d 1339 (11th Cir. 2002)

9, 18

Sibbaeh v. Wilson & Co.,
312 U.S. 1 (1941)..

14

Springer v. Convergys Customer Mgmt. Grp. Inc.,
509 F.3d 1344 (11th Cir. 2007)....................

18

Tipton v. Bergrohr GMBH-Siegen,
965 F.2d 994 (11th Cir. 1992)

12

United States v. Gonzalez-Lopez,
126 S. Ct. 2557 (2006)......

10, 17

United States v. Kozeny,
667 F.3d 122 (2d Cir. 2011)

17

Washington v. Rl. Department of Revenue,
420 F.3d 658 (7th Cir. 2005)............

7

Wascura v. City of South Miami,
257 F.3d 1238 (11th Cir. 2001)

18

Wolff v. Allstate Life Ins. Co.,
985 F.2d 1524 (11th Cir. 1993)

28

Woodson v. Scott Paper Co.,
109 F.3d 913 (3d Cir. 1997)

10, 19

Wright v. Southland Corporation,
187 F.3d 1287 (11th Cir. 1999)

21

XI.

STATUTES
28 U.S.C. 2072 (“Rules Enabling Act of 1934)

14

42 U.S.C. §2000e, et seq., as amended (“Title VII”)

1

Florida Civil Rights Act of 1992, §760.01, Fla. Stat

1

RULES
Federal Rule of Civil Procedure 15

25

Federal Rule of Civil Procedure 26

27

Federal Rule of Civil Procedure 42

12, 13

Federal Rule of Civil Procedure 50

passim

Federal Rule of Civil Procedure 56

6, 21, 23

Federal Rule of Civil Procedure 59

26-28

Federal Rule of Civil Procedure 60

27

CONSTITUTION
U.S. Const, amend. VI
OTHER AUTHORITIES

1

PETITION FOR A WRIT OF CERTIORARI
Angela W. DeBose petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for the
Eleventh Circuit.
OPINION BELOW
The Eleventh Circuit's unpublished opinion of consolidated
appeals, affirming the summary judgment orders of district court
in consolidated Appeal Nos. 18-14637 and 19-10865 that
disturbed Petitioner’s jury verdict and denied Petitioner a new
trial, is attached as Appendix [A-l], The Eleventh Circuit’s
published opinion, DeBose v. USFBd. OfTrs., No. 18-14637 (11th
Cir. Apr. 27, 2020), is attached as Appendix [A-2], The Eleventh
Circuit order denying rehearing and rehearing en banc for the
failure to review consolidated appeal 19-10865, is attached as
Appendix [A-3]. The Eleventh Circuit order accepting a separate
Reply Brief for consolidated appeal 19-10865 is found at Appendix
[A-4], The Eleventh Circuit order consolidating appeals 18-14637
and 19-10865 following Petitioner’s Objection is found at
Appendix [A-5]. The District Court’s Order denying Petitioner’s
Motion for New Trial is found at Appendix [A-6]. The District
Court Order Denying Attorney fees/costs Petitioner paid to her
former counsels and no longer Referring Front Pay is found at [A7]. The District Court’s Second Amended Judgment and its Order
granting the USFBOT’s JMOL and Conditional New Trial is
found at Appendix [A-8] and [A-9] respectively. The Costs Taxed
by the Clerk are found at Appendix [A-11]. The District Court’s
Order denying Petitioner’s Motion for Reconsideration of
fees/costs paid to her former counsels is found at Appendix [A-12].
The District Court’s Amended Judgment clarifying the verdict
was not split but unanimous in favor of Petitioner on her
discrimination and retaliation claims, is at Appendix [A-13]. The
Judgment in favor of Ellucian, L.P. is at [A-14]. The original
Judgment on the jury verdict in favor of DeBose is at Appendix
[A-15]. The Court’s Jury Verdict Form is at [A-16]. The District
Court’s unpublished Order and Opinion at Summary Judgment
is at Appendix [A-17]. The District Court’s published Order and
Opinion at Summary Judgment, DeBose v, IJniv. of S. Fla. Bd. Of
Trs., Case No: 8:15-cv-2787-T-17AEP (M.D. Fla. Sep. 29, 2017), is
at Appendix [A-18].

2

JURISDICTION
Jurisdiction of this Court is invoked under 28 U.S.C. §1254(1)
and Part III of the Rules of the Supreme Court of the United
States. The decision of the court of appeals was entered on April
27, 2020. The court of appeals denied Petitioner’s petition for
rehearing and petition for rehearing en banc on September 10,
2020. Petitioner sought an extension of time and was accorded
150 days under the Court’s March 19, 2020 Order (589 U.S.) until
February 7, 2021 for filing a petition for certiorari. This petition
is timely filed pursuant to Supreme Court Rule 13.1.
Jurisdiction was proper in the District Court pursuant to 28
U.S.C. § 1331, and jurisdiction in the appellate court was proper
pursuant to 28 U.S.C. §§ 1291 and 1294(1).
STATUTORY PROVISION AT ISSUE
42 U.S.C. §2000e, et seq., as amended (“Title VII”) and Florida Civil
Rights Act of 1992, §760.01, Fla. Stat., et seq. (“FCRA”).
STATEMENT
1. The Case and Facts
Petitioner, Angela DeBose (“DeBose”), was hired by the
University of South Florida (“USF’) in January 1988, serving last
in the position of University System Registrar. In 27 years of
service, DeBose’s performance was rated exemplary. In 2014, the
situation dramatically changed. DeBose was the victim of an
invidious email smear campaign. Dr. Paul Dosal (“Dosal”), Vice
Provost, and Dr. Ralph Wilcox (“Wilcox”), USF Provost, and
others in senior leadership circulated racially-charged derogatory
(e.g. black bitch, black witch) emails about her. Dosal and Wilcox,
in their supervisory capacity, failed to address these acts of
racism against DeBose, doing nothing to put a stop to it, though
in their control, to enforce nondiscrimination and similar policies.
In June 2014, DeBose complained to Dosal about possible
discrimination. Thereafter, Dosal and Wilcox effectively demoted
DeBose, reducing her scope of work, through a reorganization.
Dosal and Wilcox isolated and excluded DeBose from meetings
where her attendance was usual or expected. DeBose was
marginalized and treated disrespectfully. Dosal failed to conduct
DeBose’s annual performance appraisal, impacting her
consideration for merit-based salary increases and promotion.

3

In July 2014, DeBose filed an EthicsPoint complaint, which
Human Resources (“HR”) and Diversity, Inclusion and Equal
Opportunity (“DIEO”) failed to investigate. Dosal and Wilcox
concealed from DeBose that the unadvertised position of
Assistant Vice President of Enrollment Planning & Management
(“AVP EPM”) was available and failed to consider DeBose for
promotion. Though DeBose was highly qualified and trained and
onhoarded Dosal, a history professor, to his interim role as AVP
EPM, Dosal and Wilcox secretly promoted a less qualified
candidate for the position—Billie Jo Hamilton, Financial Aid
Director, without a search. Because of DeBose’s protected
conduct, Dosal and Wilcox disqualified DeBose from
consideration for the position in a humiliating way that other
employees were not. Consequently, in August 2014, DeBose filed
an internal complaint of discrimination with DIEO.
In December 2014, DeBose filed a discrimination complaint
with the United States Equal Employment Opportunity
Commission (“EEOC”) when the situation did not improve but
instead grew progressively worse. Dosal and Wilcox showed
heightened anger and aggression towards DeBose and widely
publicized to DeBose’s colleagues and a large number of
employees that DeBose filed an EEOC complaint against them.
Dosal solicited help from Alexis Mootoo (“Mootoo”) concerning
DeBose’s discrimination complaints. Mootoo, when visiting the
Registrar’s Office, routinely and inappropriately used the word
“nigger” around DeBose and her staff. Dosal knew of Mootoo’s
use of the ‘W’-word in the Registrar’s office but did nothing.
Because of DeBose’s protected activity, Dosal solicited complaints
about DeBose from those with whom she worked closely,
including Mootoo, and scheduled meetings with DeBose, having
no agenda, so that he could berate her.
On February 4, 2015, DeBose filed a motion for a Temporary
Restraining Order (“TRO”) and/or preliminary injunction with
the Middle District of Florida (“District Court”) to maintain the
status quo during the pendency of the EEOC investigation.1
Once notified of the legal action by the USF General Counsel, that
same day, Dosal and Wilcox issued DeBose her first-ever written
reprimand for unprofessional conduct, a terminable offense, in
violation of USFs policy/practice of progressive discipline.
Unbeknownst to DeBose, Mootoo alleged that DeBose called her
a “little girl” in a meeting that was subsequently refuted by
Registrar’s Office staff in attendance. The President and the USF
1MDF Case No. 8:15-mc-00018 -EAK-MAP.

4

Board of Trustees (“USFBOT”), the first and second level to hear
the grievance, rejected DeBose’s request to grieve the reprimand,
against USF policy. On February 4th, the same day as DeBose’s
MDF legal action and the subsequently issued written reprimand,
Dosal also engaged Ellucian, L.P. (“Ellucian”) to bring Andrea
Diamond (“Diamond”), Functional Consultant, to campus to
perform an “urgent” post-implementation assessment (“PIA”) of
Degree Works, a software system DeBose successfully
implemented four years prior. The “urgent” visit was scheduled
for April 14-16, 2015, with the write-up / report due on May 4-8,
2015. Unaware of the PIA, the agenda, the details of the visit,
and the expectation that the Registrar would attend, DeBose was
not asked to meet with Diamond until the day before Diamond’s
visit.
On April 15, 2015, DeBose and registrar’s staff member, Shruti
Kumar (“Kumar”), met with Diamond for 45 minutes, answering
all questions asked. Afterwards, Diamond debriefed with Dosal,
Wilcox, and others in senior positions to edit her report and/or
request changes. Diamond submitted her final report on May 9,
2015. The report was critical and specifically targeted DeBose.
Dosal wrote to Diamond on April 20, 2015, “Based on our
debriefing...you’ve given me a good idea of what needs to be done.”
[Trial Day 9/13/18 123:21-24; Exhibit #192], After which, Dosal,
Wilcox, and Gerard Solis, USF General Counsel, set DeBose’s
termination in motion. Dosal forwarded the report to DeBose,
stating, eTm giving you an opportunity to respond.” Diamond
wrote that DeBose did not answer any questions, kept registrar’s
staff from meeting with her, and was a risk that could keep
Student Success from achieving its goals. DeBose was the only
person asked to respond to Diamond’s report, under a veiled
threat of termination. DeBose and two Registrar’s Office
employees,
Kumar
and
Rolanda
Lewis
(“Lewis”)
mentioned/referenced in the report, submitted statements that
refuted the contents in Diamond’s report. Dosal forwarded the
responses from DeBose, Kumar, and Lewis to Wilcox. USFBOT
undertook no investigation to resolve the discrepancies in the
report or determine its veracity. [Trial day 9/12/18 187:8-15;
9/13/18 101:12-18].
On May 19, 2015, DeBose was lured under false pretenses to a
meeting with Kofi Glover (“Glover”), Vice Provost, on Wilcox’s
behalf, about the “Ellucian Report”. When DeBose entered,
Glover immediately hand-delivered a termination letter from
Wilcox. The letter stated DeBose was being terminated—not for
cause or disciplinary reasons but at Wilcox’s prerogative.

5

However, in public / media accounts, Wilcox pointed to DeBose as
an identified risk per the Ellucian Report. See Farrell v. Planters
Lifesavers Co., 55 206 F.3d 271, 280-81 (3d Cir. 2000)(
circumstantial evidence, such as inconsistent reasons given by
the employer for terminating the employee or the employer's
treatment of other employees, give rise to an inference of
causation when considered as a whole). The President and the
USF Board again rejected DeBose’s termination grievance,
stating that DeBose was not terminated for cause. DeBose was
separated on May 19, 2015, one week after Diamond’s May 4-8
write-up. DeBose was forced to exhaust her leave in violation of a
“grandfather” clause in her contract, which provided that she
would receive regular pay in the event of a compulsory leave and
receive full payout of PTO. USFBOT materially breached
DeBose’s regular employment contract and an extended contract
to 2019-20 year.
On May 20-21, 2015, DeBose was offered and accepted a
position at the University of North Florida (“UNF’) by Albert
Colom (“Colom”), VP of Enrollment Services. UNF notified USF
as a courtesy of DeBose’s hire. On May 26, 2015, Wilcox called
and spoke to Earle C. Traynham (“Traynham”), UNF Provost,
about DeBose and gave a “poor reference”, in violation of USF
policy. Following Wilcox’s call, Colom called/texted DeBose at
Traynham’s request, to rescind the job offer. After her separation,
DeBose made several public record requests for documents. In
June 2015, DeBose filed a state court action upon refusal by Solis,
USF General Counsel to provide the documents. Sometime in
June 2015, Dosal, Wilcox, Mootoo and USFBOT’s representatives,
ordered the destruction of DeBose’s personnel files, containing
her work projects, awards, recognitions, performance evaluations,
leave and attendance records, and her employment contracts. In
a Herodian-like litigation scheme to have it appear that DeBose
was not specifically targeted, all employee files maintained by the
department were placed in bins for shredding by a third-party
contractor. DeBose was officially terminated on August 19, 2015
and in the months that followed, voluntarily dismissed her
federal action for injunctive relief to maintain the status quo.
DeBose subsequently learned of the destruction of her personnel
files after she filed a discrimination and retaliation lawsuit on
December 4, 2015, for unlawful employment practices in violation
of Title VII of the Civil Rights Act of 1964, 42 U.S.C. §2000e, et
seq., as amended (“Title VTI”) and the Florida Civil Rights Act of
1992, §760.01, Fla. Stat., et seq. (“FCRA”); intentional

6

interference with a business relationship; civil conspiracy; and
breach of contract under Florida law.
2. District Court Proceedings
The complaint reviewed at summary judgment was Plaintiffs
Third Amended Complaint (“TAC”). Pervasive discovery issues
at summary judgment included Petitioner’s allegation that:
USFBOT concealed/withheld DeBose’s current 2015 and
extended 2019 employment contracts, (ECF.45, p. 20); USFBOT’s
willful destruction of DeBose’s personnel files and contracts.2 The
date on which the United States District Court, Middle District of
Florida, Tampa Division, decided the case at summary judgment
was September 29, 2017, (App. A-17). The District Court
misapplied Rule 56, excluding ~ 550 pages of Petitioner’s
summary judgment evidence because DeBose did not
authenticate each page by affidavit. The District Court abused
its discretion, impacting DeBose’s substantial rights, by
disallowing DeBose the constitutional right of self­
representation—excluding her opposition briefs, statements of
disputed fact, cross motion for summary judgment against
USFBOT, etc. and evidence. The District Court relied exclusively
on the pleadings of Defendants’ representatives and DeBose’s
deposition, (App. A-17, pg. 10). The District Court excluded
DeBose’s statistical data which showed USFBOT’s practice of
direct appointments or promotions without a search had a
discriminatory impact on Petitioner’s classification. In that same
vein, the District Court erred in refusing to review Petitioner’s
Cross Motion for Summary Judgment against Defendant
USFBOT, (ECF-169).
In a prior ruling, the District Court
approved Petitioner’s Motion to Proceed Pro Se, following the
withdrawal of her counsels, (ECF-122). Petitioner sought to
recuse the District Court Judge for fear she would not receive a
fair trial, denied. Pursuant to the September 29, 2017 order,
DeBose’s disparate treatment race discrimination and retaliation
claims against USFBOT proceeded to trial, and all other claims
against USFBOT were dismissed. The claims against Ellucian
were dismissed in the entirety.
A Jury Trial was held from September 10-26, 2018. At trial,
Petitioner showed the backlash of retaliation against her was
continual and progressive. DeBose established the causal
2 In its July 20, 2016 Answer, USFBOT denied the destruction, (ECF-51). On January 23, 2017,
after the close of discovery, USFBOT filed affidavits, admitting to the destruction, (ECF-61).

7

relationship element by direct and circumstantial evidence,
including that the adverse actions occurred closely in time after
she engaged in protected activity. Gordon v. NY City Bd of Educ.,
232 F.3d 111, 117 (2d Cir. 2000). In order for DeBose to establish
a claim of retaliation under Title VII, she had to prove that she
engaged in statutorily protected activity, suffered a materially
adverse action, and there was some causal relation between the
two events. Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S.
53, 126 S.Ct. 2405, 2410-16, 165 L.Ed.2d 345 (2006). DeBose
introduced evidence that she engaged in six distinct acts
qualifying as "protected activity" for purposes of a Title VII
retaliation claim: (1) in June, July and August of 2014,
respectively, DeBose filed internal complaints with USE alleging
that she had been subjected to unlawful discrimination; (2) in
December of 2014, DeBose filed a charge of discrimination with
the EEOC; (3) on February 4, 2015, DeBose filed a civil action in
this District seeking to preliminarily enjoin USFBOT from
discriminating against her and terminating her employment; (4)
in March 2015, DeBose amended her EEOC complaint and added
a charge of retaliation following the written reprimand for
unprofessional conduct, a terminable offense; (5) on May 21,2015,
DeBose amended her EEOC complaint again to include the
unlawful, retaliatory termination; and (6) on June 26, 2015,
DeBose requested the Right to Sue Letter following the
separation from her employment and Wilcox’s retaliatory
negative reference. It was also in June 2015 that DeBose’s
personnel files were destroyed by USFBOT, following a public
records request for them.
DeBose also met her burden to offer evidence of multiple
adverse employment actions taken by USFBOT—that she was
treated differently following her complaints of discrimination; she
received a written reprimand for unprofessional conduct, a
terminable offense; the Ellucian write-up labeling DeBose a risk
to Student Success, calling for her to be fired; her separation and
termination; and the negative employment reference that
resulted in revocation of employment with UNF. Though the
District Court granted USFBOT’s motion in limine to preclude
DeBose from offering any evidence of the vandalism of her car or
the shredding of all her department personnel files, these acts
also qualified as evidence of unlawful retaliation. See Washington
v. III. Department of Revenue, 420 F.3d 658, 96 FEP 545 (7th Cir.
2005)(an employer’s retaliatory response to protected activity
need not necessarily affect the terms and conditions of
employment in order to constitute a valid claim with respect to

8

contention that retaliation was caused by internal complaint).
Additionally, Dosal testified that he told a wide number of USF
employees about DeBose’s discrimination complaint, creating the
very real potential that actually developed for several of them to
band against her. [9/13/18 60:5-25; 61:1-17], See Mogenhan v.
Napolitano, 613 F.3d 1162, 1166-67 (D.C. Cir. 2010), finding it
was materially adverse to publicize an employee's EEO complaint
to her colleagues. Id. Dosal’s and Wilcox’s animosity and hostility
were also self-evident, as they both testified that DeBose “did not
deserve ‘due process. ’” [Q. Did you testify yesterday that you did
not believe Angela DeBose deserved due process. A. Yes - 9/13/18
55:5-7]. The jury witnessed Dosal’s and Wilcox’s demeanor and
their teeth set on edge, when testifying they kept DeBose in the
dark about derogatory emails circulating about her. [9/13/18
73:24-25; 74:1-18]. The jury heard testimony from Dosal and
Wilcox that no effort was made to investigate Mootoo’s allegation
that resulted in the written reprimand or Diamond’s Ellucian
report. [9/12/18 174:3-5; 187:8-15]; [9/13/18 17:10-13, 73:23-25,
74:1-18, 101:12-18]. The jury heard Dosal and Wilcox admit that
DeBose was not allowed to grieve the actions taken against her
and most often had no notice of them or opportunity to respond—
even when required by school policy, [9/19/18 13:6-16]. The
District Court stated and understood, as did the jury: “...the
inquiry is addressed towards due process and whether or not the
people charged with due process were acting in a hostile manner. ”
[9/19/18 89:15-20]. A hostile work environment is an adverse
employment action for purposes of the retaliation provisions of
Title VII. See Jensen v. Potter, 435 3d 444, 97 FEP 555 (3d Cir.
2006).
DeBose also proved that USFBOT’s explanations for the
adverse employment actions were pretext. Dosal testified that
DeBose would have been reprimanded no matter what—even if
Mootoo had not made the “little girl” allegation, [9/13/18 17:1013], which DeBose offered evidence to show that he solicited
Mootoo to go to HR, [9/12/18 137:20-25, 138:6-11; Exhibits 41,74,
75, 80]. Both Dosal and Wilcox admitted at trial that DeBose’s
EEO complaints and legal activities (i.e. the February 4, 2015
MDF TRO/injunction complaint), led to their decision, [9/13/18
55:5-25, 56:1-4 57:9-19]; [9:19/18 5:2-25; 6:1-23, 11:6-13], Dosal
admitted that the reasons given were not the real reasons adverse
action was taken (i.e. prima facie evidence that the employer’s
proffered reason is pretext). In fact, Dosal stated at trial for all
members of the jury to hear, that adverse action was taken
against DeBose because of her legal action and because “she filed

9

complaints.” [9/13/18 55:5-25; 56:1-3], See Fabela v. Socorro
Indep. Sch. Dist., 329 F.3d 409, 91 FEP 1107 (5th Cir.
2003)(while lack of temporal proximity can render a retaliation
claim meritless, the time lapse was rendered irrelevant when the
decisionmaker listed the plaintiffs protected activity as among
the factors leading to his decision); See also Rojas v. Florida, 285
F.3d 1339, 1342 (11th Cir. 2002);Miranda v.B&B Cash Grocery
Store, Inc., 975 F.2d 1518, 1528-29 (11th Cir. 1992). A plaintiff
may demonstrate pretext by showing that the defendant’s
proffered reason for an adverse action is a cover-up for retaliation
A reason is pretextual only if it is false and the true reason for the
adverse action is retaliation. Springer v. Convergys Customer
Mgmt. Grp. Inc., 509 F.3d 1344, 1349 (11th Cir. 2007). Dosal
testified the complaints were the real reason for USFBOT’s
action, [9/13/18 55:5-25, 56:1-4 57:9-19]. Dosal testified that
following DeBose’s MDF complaint, it was decided that he would
have a lesser role and by implication, Wilcox would play a more
prominent role. [9/19/18 5:2-25; 6:1-23; 11:6-13]. Under federal
and state law, the terms or conditions of employment can be
altered constructively or explicitly. Burlington Industries, Inc. v.
EUerth, 524 U.S. 742, 752 (1998). Thus, claims are generally
either: (1) claims of adverse, tangible employment actions, such
as “discharge, demotion or undesirable reassignment”; or, (2)
claims in which the work environment was sufficiently hostile,
such that even though an adverse tangible employment action did
not occur, the terms and conditions of employment were altered.
See Federick v. Sprint /United Management Co., 246 F. 3d 1305,
1311 (11th Cir. 2001), citing EUerth, 524 U.S. at 761-63, 765;
Johnson v. Booker T. Washington Broad Serv., Inc., 234 F. 3d 501,
508 (11th Cir. 2000).
DeBose also successfully persuaded the jury that USFBOT’s
contact with Ellucian on February 4, 2015 to schedule an urgent
visit to the USF campus to write the Ellucian Report was not a
mere coincidence, given its same-day proximity and occurrence to
the MDF TRO/injunction and written reprimand. DeBose
introduced evidence to show that Ellucian added DeBose to the
agenda, without her knowledge, though the Degree Works
software system “changed hands” in 2014 and DeBose had not
been involved or responsible for the system for approximately one
year. DeBose introduced evidence that Ellucian’s Diamond
debriefed with Dosal and Wilcox and that Diamond permitted
Dosal, et al., to make edit and make changes to the report,
[9/13/18 123:21-24; 124:13-24; 126:1-13]; [Exhibits 17, 18, 24, 25,
194, 196, 224, 238A, 238B ]. The Ellucian visit was very close in

10

proximity to the March 2015 EEOC updated complaint adding a
charge of retaliation, particularly if analyzed under the “first
opportunity” standard. See Dixon v. Gonzales, 481 F.3d 324, 335
(6th Cir. 2007), holding ("[A] mere lapse in time between the
protected activity and the adverse employment action does not
inevitably foreclose a finding of causality. Id. See also McGuire v.
City of Springfield, III., 280 F.3d 794, 796 (7th Cir.2002) (holding
that although a ten-year delay between protected activity and the
adverse employment action "was exceedingly long[,]... the reason
a long wait often implies no causation ... d[id] not apply" in that
case because the employer had no earlier opportunity to
retaliate)." (emphasis in the original).
With regard to Wilcox’s negative reference, DeBose introduced
evidence that on May 26, 2015, just days after Wilcox terminated
DeBose, he called and spoke to Traynham, UNF Provost, about
DeBose for six (6) minutes. [9/19/18 38:13-15]; [Exhibit #277].
DeBose presented evidence that the day after the call, the position
DeBose accepted with UNF was rescinded. See, e.g., Woodson [u.
Scott Paper Co., 109 F.3d 913, 921 (3d Cir. 1997)], finding that
where the time between the protected activity and adverse action
is not so close as to be unusually suggestive of a causal connection
standing alone, courts may look to the intervening period for
demonstrative proof, such as actual antagonistic conduct or
animus against the employee. Wilcox testified that he did not
discuss DeBose’s performance or the fact that she received the
highest (exemplary) rating, [9/19/18 44:1-5; 45:3]. Wilcox testified
that he stated DeBose was ‘\incollaborative and resistant to
change” [9/19/18 45:5-20], Wilcox testified that he was not aware
of DeBose’s performance, showing he was unqualified to give a
reference. [9/19/18 120:6-9]. In the 6-minute phone call, Wilcox
only spoke negatively about DeBose and he admitted that he was
not asked to be a reference for DeBose [9/19/18 39:9-14; 60:19-25;
61:1-11], and was merely notified of DeBose’s hire to determine
her availability, [9/19/18 41:23-25]. DeBose presented evidence to
show Wilcox harbored a retaliatory and discriminatory racial
animus against DeBose, and other women of color (e.g. Jennifer
Meningall), and took adverse action against them. [9:12/18
106:19-25, 107:1-25, 108:1-25; 109:1-25]; [9/18/18 63:4-7; 68:7-23;
71:16-25; 71:1-17]. DeBose introduced evidence that Wilcox
ruined new job opportunities for other women by giving negative
references against USFBOT policy (e.g. Noreen Noonan, et al.),
[9/12/19 104:13-25; 105:1-25; 106:1-18]; [Exhibit #295]. DeBose
presented evidence to show Wilcox’s action did not comport with
USF policy [9/19/18 42:11-24], Though Wilcox denied that he

11

referred to DeBose as ‘toxic” or stated to Traynham, “you will
regret it if you hire her” [9/19/18 60:3-10], the jury was not
required to believe him. The jury believed Dosal and Wilcox
acted to poison the well against DeBose, leaving DeBose without
a job.
Therefore, a conscientious jury returned the verdict for DeBose
on both claims, (App. A-16), finding the adverse actions taken
were discriminatory and motivated by Dosal’s and Wilcox’s
racially-motivated animosity and hostility towards her. Because
the jury was not properly instructed that the employer’s reasons
had to be lawful, the jury decided the employer would have taken
the same action. The jury decided that DeBose successfully
established a ‘But For’ prima facie case of retaliation—that Dosal
and Wilcox retaliated because of DeBose’s protected activity. The
jury verdict is decisive in showing that they understood the causal
relationship between the filing of DeBose’s complaints and legal
activities and USFBOT’s adverse actions that occurred close in
time, one after the other. The jury made a reasonable connection
between the incidents and the complaints. Additionally, Dosal’s
and Wilcox’s testimony that DeBose complaints and/or legal
activities were the real reason adverse action was taken against
DeBose was prima facie evidence of pretext.
The Amended Final Judgment, (App. A-13), was entered on
October 5, 2018 in favor of DeBose in the amount of $310,500.00
and against Defendant USFBOT on plaintiffs disparate
treatment race discrimination and retaliation claims. Pursuant
to the September 29, 2017 order, final judgment was entered in
favor of USFBOT and against DeBose on Plaintiffs breach of
contract,
conspiracy,
tortious interference,
promotion
discrimination, gender discrimination, and disparate impact race
discrimination claims, (App. A-15). On September 27, 2018,
DeBose requested attorney’s fees and litigation costs. On October
19, 2018, the court denied reasonable attorney fees/costs that
DeBose paid to her former attorneys, (App. A-12). Petitioner Pro
Se timely moved for reconsideration, again requesting fees/costs
paid to her counsels. The District Court referred DeBose’s motion
for front pay, (ECF-499).
On October 29, 2018, USFBOT filed a renewed JMOL motion.
DeBose filed a post-trial motion for sanctions on December 31,
2018, having obtained proof of the extended employment
contracts of Dosal and Wilcox to 2019, similar to hers, through a
third-party public records request, denied.3 On February 14,
3 Appeal No. 18-14535, dismissed.

12

2019, five months after the jury verdict, the District Court
granted USFBOT’s motion for JMOL and conditional trial, (App.
A-9). A Second Amended Judgment was entered in favor of
USFBOT on Plaintiffs Retaliation Claim, (App. A-8).
On
February 15, 2019, the court no longer referred the matter of front
pay to the Magistrate, (App. A-7), and declined to reconsider
DeBose’s request for fees paid to her former counsels. Id. The
District Court did not make any ruling on USFBOT’s motion for
the court to review the costs taxed by the Clerk, (App. A-11). On
February 24, 2019, DeBose filed a motion to set aside the
judgment in USFBOT’s favor and reinstate the jury verdict, or in
the alternate, grant a new trial. On February 28, 2019, the court
ordered mediation. On March 10, 2019, DeBose filed an appeal of
the Orders granting USFBOT’s JMOL, denying Petitioner a New
Trial, and other related post-judgment orders. Following an
impasse, the District Court denied DeBose’s new trial motion on
April 24, 2019. (App. A-6).
On April 25, 2019, Petitioner
amended the appeal.
3. The Court of Appeals Panel Review.
The Eleventh Circuit has recognized that courts must consider
the record as a whole in ruling on motions for summary judgment.
Allen v. Tyson Foods, Inc., 121 F.3d 642, 646 (11th Cir. 1997)
("[w]here the record taken as a whole could not lead a rational
trier of fact to find for the non-moving party, there is no genuine
issue for trial") (quoting Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587 (1986)); Tipton v. Bergrohr
GMBH-Siegen, 965 F.2d 994, 998 (11th Cir. 1992) ("[i]n opposing
summary judgment, the nonmoving party may avail itself of all
facts and justifiable inferences in the record taken as a whole" ).
The Eleventh Circuit has also noted that a Pro Se plaintiffs
pleadings and briefs are entitled to a more liberal construction.
Brown v. Crawford, 906 F.2d 667, 670 (11th Cir. 1990). On April
27, 2019, the Panel entered an Order affirming the District
Court’s Orders. The Panel relied almost exclusively on the
District Court’s Summary Judgment Opinion, (App. A-17), and
Appellees’ Answer Brief, deeming itself merely the judicial echo
of the District Court’s rulings and the Appellees’ conclusion that
DeBose’s substantial rights were not impacted. The Panel
decision does not discuss the District Court’s JMOL Order
overturning the jury verdict, (App. A-9); the Panel denied DeBose

13

a new trial stating her motion for new trial was untimely, (App.
A-6).
DeBose petitioned for Rehearing / Rehearing En Banc, review
denied, (App. A-3), contending the Panel misapplied the harmless
error rule to find that the district court’s error was harmless and
did not impact DeBose’s substantial rights.
REASONS FOR GRANTING THE PETITION
Certiorari is appropriate because the Eleventh Circuit has
decided an important federal issue that conflicts with relevant
decisions of this court, and because the Eleventh Circuit so far
departed from the accepted and usual course of judicial
proceedings, as to call for an exercise of this Court’s supervisory
power. Sup. Ct. R. 10(a), (c).
1. Whether a Rule 42 consolidation can deprive a party of a
substantive right—the right to an appeal from a final
judgment—when the Rules Enabling Act prohibits the federal
rules from abridging or modifying a party’s rights.
Enacted in 1983, Rule 42(a)(2) Consolidation provides that if
actions before the court involve a common question of law or fact,
the court may consolidate the actions. Rather than focus on plain
meaning, the term “consolidate” has a legal history dating back
125 years that makes it clear “that one of multiple cases
consolidated under the Rule retains its independent character.”4
From the outset, the Supreme Court has understood consolidation
“not as completely merging the constituent cases into one, but
instead as enabling more efficient case management while
preserving the distinct identities of the cases and the rights of the
separate parties to them.”5 Consolidation was held not to affect
the amount in controversy of cases, the number of peremptory
challenges available to parties, and the issues that parties could
raise or appeal. Simply put, consolidation does not merge the
suits, change the rights of parties, or make a party to one action
a party to another consolidated action. Because Rule 42 was
modeled on the 1813 statute and did not define “consolidate,” “the
term presumably carried forward the same meaning we had
ascribed to it under the consolidation statute for 125 years.” Thus,
4 Chief Justice John Roberts, Unanimous Supreme Court Opinion, Hall v. Hall, 138 S. Ct. 1118
(2018).
5 Id.

14

Rule 42(a) did not transform consolidation. A unanimous
Supreme Court in Hall v. Hall held that civil actions consolidated
under Federal Rule of Civil Procedure 42(a) retain their separate
identities, so that a final decision is immediately appealable by
losing
the
party,
regardless of whether
any o/the
other consolidated cases remain pending.6
Under Section 1291, the right of appeal is a substantive right.
The Rules Enabling Act, consistent with this Court’s decision in
Johnson v. Manhattan Ry. Co., 289 U.S. 479 (1933), does not allow
the consolidation of cases to deprive a party of a substantive right
to appeal a final judgment. Rather, the Rules Enabling Act, now
codified at 28 U.S.C. § 2072, prevents federal courts from
adopting rules that “extend or restrict the jurisdiction conferred
by a statute.” Sibbach v. Wilson & Co., 312 U.S. 1, 10 (1941).
Accord Snyder v. Harris, 394 U.S. 332, 337-38 (holding that the
interpretation of the diversity of jurisdiction statute cannot be
changed by a change in the rules). Based on the above reasoning
concerning cases, the Eleventh Circuit order, (App. A-5),
consolidating the two appeals should not have altered the
character of Petitioner’s appeals and thereby deprive her of the
meaningful right to appeal granted by Section 1291. Court rule
cannot modify this substantive right. Likewise, consolidation of
appeals cannot be used to abridge the rights of a party. The
Supreme Court has defined a final judgment as a judgment that
“disposes of the whole case on its merits.” Bostwick v. Brinkerhoff,
106 U.S. 3, 4 (1882). Though this case law dates back nearly 140
years ago, the Court continues to hold that appeals may be taken
from a judgment that disposes of a whole case on the merits under
the plain language of 28 U.S.C. § 1291. The judgment at issue in
this case falls within this core definition of the final judgment
rule—a judgment that “ends the litigation on the merits and
leaves nothing for the court to do but execute the judgment.”
Catlin v. United States, 324 U.S. 229, 233 (1945). Here, the
Eleventh Circuit’s consolidation of the appeals (18-14637 and 1910865) prevented Petitioner from effectively appealing the
District Court’s Order overturning the jury verdict and granting
USFBOT’s JMOL and conditional new trial, (App. A-9), and the
District Court Order denying DeBose, the verdict winner, a new
trial, (App. A-6). The orders were final and the District Court’s
Second Amended Judgment, (App. A-8), was also final.
Because the district court entered a final judgment, the plain
language of 28 U.S.C. § 1291 gave petitioner a right of appeal.
6 Id.

15

DeBose filed notice of appeal, paid the docketing fee, and fully
briefed 18-14637 and 19-10865. The Eleventh Circuit ordered
consolidation of the appeals over Petitioner’s objection that
consolidation might confuse the issues and/or standard of review.
For whatever tidbits the panel gleaned from either appeal, the
Eleventh Circuit panel failed to review the record as a whole, as
filed in 18-14637, and failed to review 19-10865—particularly the
de novo review of the District Court’s JMOL order entirely. The
Eleventh Circuit’s procedural rule modified DeBose’s substantive
rights to appeal. The appellate court’s consolidating and
sequencing of Appeal No. 18-14637 in relation to DeBose’s other
appeals had a widespread and obvious effect on the timing and
scope of the appeals but moreover substantially altered important
issues on appeal.7 Notwithstanding Petitioner’s objection, the
Eleventh Circuit determined it appropriate to consolidate the
consolidate appeals, on the basis that the appeals raise similar
facts or issues, arising from the same case. Petitioner does not
contend that it was not within the Appellate Court’s election to
consolidate appeals coming up from the District Court. Petitioner
does not argue that the Appellate Court does not possess the skill
to determine whether to consolidate the review of issues or orders
on appeal. However, Petitioner asserts that no matter how the
Appellate Court characterizes the reasons for consolidation, it
may not abridge the rights of a party or deny, whether or not
constitutional, the right to appeal. In the American justice
system, appellate remedies play a significant role and perform
several robust functions, including correcting legal and factual
errors; encouraging the development and refinement of legal
principles; increasing uniformity and standardization in the
application of legal rules; and promoting respect for the rule of
law.8 Here the Eleventh Circuit panel decision fell substantially
short of these goals.
The Eleventh Circuit consolidated
Petitioner’s appeals and severely limited its review. It is of little
consequence to Petitioner that the consolidation was done for
7 Appeal No. 18-14535 was filed upon DeBose moving for sanctions, denied, upon obtaining
irrefutable proof that USFBOT continued to use written employment contracts well after 2005 (i.e.
Dosal’s and Wilcox’s 2019 contracts). The appeal was initially dismissed on jurisdictional grounds
but was subsequently reinstated. USFBOT made a late, unfiled challenge of jurisdiction, without
the required notice to DeBose. Though the Eleventh Circuit was sitting in jurisdiction and could
properly consider the matter, 18-14535 was dismissed. See Pillow v. Bechtel Const., Inc., 201 F.3d
1348, 1351 (11th Cir. 2000). If reviewed, the Appeals Court may have found that the Respondent’s
misrepresentation that USFBOT stopped using written contracts in 2005 absolutely demands
reversal.
8 Robertson, Cassandra Burke, The Right to Appeal (2013), Case Western University School of Law
Scholarly Commons, Faculty Publications.

16

reasons of judicial efficiency, “{T]he benefits of efficiency can
never be purchased at the cost of fairness.” See Malcolm v. Nat’l
Gypsum Co., 995 F.2d 346, 350, 354 (2d Cir. 1993) C[I]t is possible
to go too far in the interests of expediency and to sacrifice basic
fairness in the process.”).
2. Whether the Eleventh Circuit erred in holding the denial of
a pro se litigant’s right to self-representation and to testify at
trial as the type of due process constitutional rights errors in
which the harmless error standard could apply.
A. The Structural Errors Demand Reversal
The District Court’s en masse exclusion of Petitioner’s
pleadings and evidence in the entirety at summary judgment and
the destruction of Petitioner’s employment records by Appellee
should have raised an immediate red flag for the Appellate Court.
It is a well-settled rule that an erroneous ruling which relates to
the substantial rights of a party is ground for reversal, unless it
affirmatively appears from the whole record that it was not
prejudicial. McCandless, 298 U.S. 342, 348; United States v. River
Rouge Co., 269 U.S. 411, 421,46 S.Ct. 144; Fillippon v. Albion
Vein Slate Co., 250 U.S. 76, 82,39 S.Ct. 435; Williams v. Great
Southern Lumber Co., 277 U.S. 19, 26 , 48 S.Ct. 417. In
McCandless, the Supreme Court held that the [c]ourt(s) should
never reject evidence, if it tends legally to prove any part of the
case. Id., 298 U.S. 342, 343. DeBose argued on appeal that the
District Court’s error to exclude her entire pleading at summary
judgment, relying solely on the Defendants’ pleadings, denied her
the right to self-representation. In this vein, DeBose contended
the District Court’s error was structural. DeBose filed a motion
to proceed pro se, which was granted following withdrawal of her
counsels, (ECF-122). DeBose adequately represented herself, and
the magistrate expressed at hearing that she was competent to
represent herself, (ECF-222). DeBose objected to the District
Court’s action to deny her right to self-representation in her
motion for reconsideration, (ECF-217). DeBose’s pleadings were
not incomprehensible, as the District Court granted motions by
USFBOT and Ellucian to reply to DeBose’s Response in
Opposition to Summary Judgment, (ECF-205, ECF-206).
USFBOT also submitted a response to DeBose’s Cross Motion for
Summary Judgment, (ECF-169). All parties fully briefed the
issues; thus, the District Court’s mass exclusion of pleadings and
evidence applied only to DeBose. The Panel failed to consider this

17

structural error and its harmful and prejudicial effect on DeBose.
At trial, the District Court put Petitioner on a chess clock and
would not permit her to testify as a fact witness in her own case
to the substantive issues but only as to damages.
The U.S. Supreme Court has recognized bias of the trial judge9,
the denial of the right to pro se representation as above, racial
discrimination in the selection of the jury10, and non-harmless
errors in jury instructions11, etc., as errors that cannot be
harmless and necessarily must result in the reversal. See, e.g.,
United States v. Gonzalez-Lopez, 126 S. Ct. 2557, 2563-65 (2006);
Arizona v. Fulminante, 499 U.S. 279, 310 (1991). The Eleventh
Circuit did not address any of these structural issues raised by
Petitioner on Appeal (and Rehearing / Rehearing En Banc) in its
review. Rankin v. Evans, 133 F.3d 1425, 1433 (11th Cir. 1998)
sums up the instant appeal:
The panel opinion in this case holds that once a jury
has discharged its duty without error or misconduct
has unanimously decided in favor of a plaintiff, a
judge with demonstrated bias against the plaintiff
and for the defendant, may overturn the jury’s
verdict and substitute the judge’s own opinion. This
is an unprecedented nullification of the Sixth
Amendment right to a jury trial, an eclipse of the
sacrosanct jury verdict, and an assault against civil
rights plaintiffs wherein the government’s interest
in unlawful employment discrimination and
retaliation against racial minorities is more
compelling and protected to outweigh an
individual’s right to be free from unlawful
employment discrimination and retaliation upon
engaging in a protected activity.
B. The Jury Verdict Finding Petitioner Established “But-For”
Causation was Reasonable and Unanimous

9 The district court record reflects that DeBose sought the removal of the trial judge and declined the
trial judge’s offer of a bench trial before the magistrate, [9/17/18, pg. 42-43],
10 The bias of Respondent was also shown in jury selection. Respondent’s counsel supposedly gave a
“race neutral” reason for wanting to strike the only remaining black (female) juror from the
proceedings: She’s a housekeeper, she hasn't worked very long and she's very young. [See Trial Day
One 9/10/18 52:1 through 55:1-11; 131:19-25,132:1-22]. Notably, the juror was over 40 and could have
worked at a variety of other jobs.
11 See United States v. Kozeny, 667 F.3d 122, 130 (2d Cir. 2011); the District Court misstated the
clear record that DeBose did not object to the jury instructions. See ECF-409, 440, and 460, e.g.

18

To establish causation, there must be evidence of some causal
relationship between the two events. Burlington N. & Santa Fe
Ry. Co. v. White, 548 U.S. 53, 126 S.Ct. 2405, 2410-16, 165
L.Ed.2d 345 (2006). To prove but-for causation required to
establish a prima facie case, “A plaintiff making a retaliation
claim under [Title VII] must establish that Q her protected
activity was a but-for cause of the alleged adverse action by the
U.S.
employer”. See Univ. of Tex. Sw. Med. Ctr. v. Nassar,
__ , 133 S. Ct. 2517, 2534 (2013). Petitioner established
causation through direct and circumstantial evidence.
The plaintiff may demonstrate pretext by showing that the
defendant’s proffered reason for an adverse action is a cover-up
for retaliation. Rojas v. Florida, 285 F.3d 1339, 1342 (11th Cir.
2002); Miranda v.B&B Cash Grocery Store, Inc., 975 F.2d 1518,
1528-29 (11th Cir. 1992). A reason is pretextual only if it is false
and the true reason for the adverse action is retaliation. Springer
v. Convergys Customer Mgmt. Grp. Inc., 509 F.3d 1344, 1349
(11th Cir. 2007). Dosal’s and Wilcox’s testimony admitting that
the reason adverse action was taken against DeBose was because
she engaged in protected activities (i.e. complaints and
TRO/injunction). Their prima facie admission is direct evidence of
causation and pretext. The Eleventh Circuit has held that
sometimes causation can be established by “mere temporal
proximity between an employer’s knowledge of protected activity
and an adverse employment action, . . . [but] the temporal
proximity must be *very close.” Clark Cnty. Sch. Dist. v. Breeden,
532 U.S. 268, 273 (2001) (emphasis added). A time period as much
as one month between the protected activity and the adverse
action is not too protracted to support causation. Wideman, 141
F.3d 1453, 1457 (11th Cir. 1998). But in the absence of any other
evidence, three months between the protected activity and an
adverse employment action to have been insufficient to establish
causation. Drago v. Jenne, 453 F.3d 1301, 1308 (11th Cir. 2006);
see also Wascura v. City of South Miami, 257 F.3d 1238, 1248
(11th Cir. 2001) (holding that, by itself, three and one-half months
between protected activity and adverse action was insufficient to
prove causation). Petitioner established qualifying protected
activities spanning from June 2014 to June 2015. DeBose
established that following each complaint eeoc/EEOC complaint
or related legal activity of discrimination was followed by an
adverse action being taken by Respondent. The connection did not
go “cold” or “stale,” such that “no reasonable jury” could believe
that the adverse actions and DeBose’s complaints were related.
The District Court and the Panel overlooked DeBose’s protected

19

activities in June 2014 to excuse the failure to promote DeBose
and to promote Hamilton. Both courts also overlooked the March
2015 EEOC complaint of retaliation concerning the written
reprimand to find the gap too big concerning Diamond’s negative
write-up in the Ellucian Report, though one month is sufficiently
close. Within 5 days of DeBose’s EEOC complaint concerning the
retaliatory termination, Wilcox called UNF and gave the negative
reference. Where the time between the protected activity and
adverse action is not so close as to be unusually suggestive of a
causal connection standing alone, courts may look to the
intervening period for demonstrative proof, such as actual
antagonistic conduct or animus against the employee, see, e.g.,
Woodson [u. Scott Paper Co., 109 F.3d 913, 921 (3d Cir. 1997)]
(finding sufficient causal connection based on "pattern of
antagonism" during intervening two-year period between
protected activity and adverse action), or other types of
circumstantial evidence, such as inconsistent reasons given by
the employer for terminating the employee or the employer's
treatment of other employees, that give rise to an inference of
causation when considered as a whole. Farrell v. Planters
Lifesavers Co., 55 206 F.3d 271, 280-81 (3d Cir. 2000). DeBose
experienced other adverse actions that were recurring,
continuous, and close in time. A hostile work environment is an
adverse employment action for purposes of the retaliation
provisions of Title VII. See Jensen v. Potter, 435 F.3d 444 (3d Cir.
2006). DeBose’s was isolated, excluded, and subjected to a hostile
retaliatory work environment. DeBose was kept in the dark. Her
complaints failed to be investigated by DIEO, and DeBose’s
grievances were rejected.
The jury could also believe that
disallowing DeBose to file a grievance to appeal the disciplinary
action was causally related to DeBose’s protected activities. This
may have been solidified by Dosal and Wilcox expressions of
hostility and animosity towards DeBose at trial, stating DeBose
did not deserve “due process.” Though Respondent argued, this is
“not that kind of case,” Title VII is specifically designed to protect
the complainant’s Civil Rights. The violations of the university’s
progressive discipline, employment verification/reference policy
is also another indication that the reasons by the employer were
pretext and that the “the desire to retaliate was the but-for cause
of the challenged employment action.” Booth v. Pasco Cnty., Fla.,
757 F.3d 1198, 1207 (11th Cir. 2014) (quoting Univ. of Tex. Sw.
Med. Ctr. v. Nassar,__ U.S.___ , 133 S. Ct. 2517, 2528 (2013)).
Dosal’s and Wilcox’s testimony about the written reprimand (that
it was going to happen no matter what), the shifting reasons

20

provided as to why DeBose was terminated, and the negative
reference (Wilcox calling unsolicited to make only negative
comments though he knew nothing about DeBose’s performance
or her high ratings) sufficiently convinced the jury that the
Respondent’s reasons were pretext and that real reason or “butfor” cause was because of DeBose’s protected activity.
The Eleventh Circuit will “disturb the jury’s verdict only when
there is no material conflict in the evidence, such that no
reasonable person could agree to the verdict reached.” Bhogaita
v. Altamonte Heights Condo. Ass’n, Inc., 765 F.3d 1277, 1285
(11th Cir. 2014) (citing Bagby Elevator Co., 513 F.3d at 1275)).
The District Court expressed its disagreement with the jury,
stating: This gap proves too large to establish a causal connection.
(App. A-6, pg. 7). In analyzing the “no reasonable person”
standard, the circuits have held, The Court “ ‘may not substitute
its view of the evidence for that of the jury,’ [and may] neither
make credibility determinations nor weigh the evidence. Costa,
id., quoting Johnson v. Paradise Valley Unified Sch. Dist., 251
F.3d 1222, 1226 (9th Cir.2001). The District Court did not give
all favorable inferences to DeBose, the nonmoving party.
“Although the court should review the record as a whole, it must
disregard all evidence favorable to the moving party that the jury
is not required to believe. Reeves v. Sanderson Plumbing Prods.,
Inc., 530 U.S. 133, 151 (2000). There was substantial evidence
supporting the nonmovant’s position [i.e. DeBose] such that
reasonable persons would draw the same conclusion as the jury,
in her favor. In granting USFBOT’s JMOL, the District Court
weighed the evidence, opining, “DeBose offered no direct evidence
of retaliation”, thereby disregarding the direct testimony of the
witnesses. (App. A-6, pg. 7). At trial, the District Court instructed
the jury that it could consider both direct and circumstantial
evidence. The District Court stated that it would be up to the jury
to decide which witnesses to believe, and which witnesses not to
believe, and how much of any witness’s testimony to accept or
reject. [9/10/18, pgs. 142:15-24], In Reeves v. Sanderson
Plumbing Prods., Inc., weighing of the evidence is a jury function,
not that of a judge. Id. at 150,120 S.Ct. 2097. DeBose filed 96
Exhibits during Trial, and obtained testimonial evidence in her
favor from all of Defendant’s witnesses. USFBOT presented 61
Exhibits, of which 21 were decidedly favorable to DeBose.
USFBOT did not establish it claims and defenses by unimpeached

21

testimony.12 “That is, the court should give credence to the
evidence favoring the nonmovant as well as that ‘evidence
supporting the moving party that is uncontradicted and
unimpeached, at least to the extent that that evidence comes from
disinterested witnesses.’ [citation omitted].” Reeves v. Sanderson
Plumbing Prods., Inc., 530 U.S. 133, 151 (2000). In Reeves, lies,
contradictions, misfeasance or malfeasance do not support a
JMOL. The testimony must be credible and truthful. Id. at 152.
“The standard that [defendants] must meet is very high.” Costa
v. Desert Place, Inc., 299 F.3d 838, 859 (9th Cir. 2002). We can
overturn the jury's verdict and grant such a motion only if "'there
is no legally sufficient basis for a reasonable jury to find for that
party on that issue."’ Reeves, 530 U.S. at 149, 120 S.Ct.
2097 (quoting Fed.R.Civ.P. 50(a)). The District Court misapplied
the law to require a higher standard of “direct evidence,” a
threshold the court claimed that DeBose did not meet. Title VII
does not impose this special or heightened evidentiary burden on
a plaintiff in a "mixed-motive" case. Costa, 299 F.3d 838, 844;
Wright v. Southland Corporation, 187 F.3d 1287 (11th Cir. 1999).
C.

The Misapplication of Law was Harmful Error
The District Court’s application of Rule 56 was incorrect law
and an abuse of discretion. The Appellate Court footnoted that
DeBose was correct that the District Court misapplied the law
(i.e. Rule 56) but nevertheless affirmed the District Court, finding
the error harmless, in conflict with McCandless, 298 U.S. 342,
343. The Panel stated, “a review of the [~ 550 pages of excluded]
documents shows they would not have affected the outcome.”
(App. A-l, ftn. 1, pg. 5). See Gilbrook v. City of Westminster, 177
F.3d 839, 856 (9th Cir. 1999)(neither the Appellate Court nor the
District Court may weigh the evidence or assess the credibility of
witnesses in determining whether substantial evidence exists);
See also Ike v. Kroger Co., 248 Ga. App. 531, 532 (Ga. Ct. ApA-p.
2001); Cottle v. Storer Communication, Inc., 849 F.2d 570,
575 (11th Cir. 1988); Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 106 S.Ct. 2505 (1986), holding that an appellate court must

12 USFBOTs witnesses gave contradictory, false testimony. See Petitioner’s Evidence Chart filed
with the Motion for New Trial, [#551]; Wilcox’s affidavit that USF stop using employment contracts
in 2005 is contradicted by the clear record. USFBOT concealed from DeBose its production of
DeBose’s 2015 employment contract to her former counsels. See 2/8/17, 3/21/17, and 5/23/17 hearing
transcripts. USFBOT used a third-party contractor to shred DeBose’s personnel files; USFBOT
denied the destruction in its Answer, only to admit to it later, when DeBose submitted irrefutable
evidence.

22

construe the evidence with every inference and presumption in
favor of upholding the verdict.
Although a petition for a writ of certiorari is rarely granted
when the asserted error consists of erroneous factual findings, the
Eleventh Circuit Panel made a multitude of errors, which
supports Petitioner’s argument that the Panel did not review
Petitioner’s briefs for context to understand the issues on appeal
or what DeBose’s evidence was intended to prove:
The Appellate Court’s narrative pointed to questions about
DeBose’s professionalism and alleged difficulty in collaborating,
(App. A-l, pg. 16, t 1). The Panel Opinion made no reference to
direct testimony at trial in which Dosal testified he rated
DeBose’s performance as exemplary, [9/12/18 23:12-15], and that
her communications were professional, [9/12/18 58:13-25,59:1-24;
62:1-13, 95:2-16; 169:14-18; 9/13/18 6:7-14], The Panel Opinion
concerning DeBose’s excluded evidence reflects no understanding
of the professional skills assessments, (ECF-188, pgs. 59-63, 6471, 72-74)[Exhibits #279, #280], letters, (ECF-188, pgs. 57-58, 7880)[Exhibit #218, 271], and other documents [Exhibits# 319B-D],
which showed that collaboration is one of DeBose’s greatest
strengths. DeBose presented “stereotype” evidence to the jury
that African American/ black females, are often stereotyped as
“uncollaborative or uncooperative”, using a black female
counterpart, Dr. Jennifer Meningall, former Vice President,
Student Affairs, as an example at trial: [9/12/18 106:19-25; 107:125; 108:1-25; 109:1-25 — Q Have you ever heard others use
derogatory language concerning Jennifer Meningall? AI suppose
it depends on one's definition of derogatory. I heard complaints
about her management style and her ability or inability to work
with others]. A professional jury reviewed the evidence, heard
testimony, and was convinced that USFBOTs reasons about
DeBose lacking collaboration was pretext. The Appellate Court
stated that there was no evidence that any express employment
contract was a part of the record or existed, (App. A-l, pg. 10, U
2). The Panel overlooked DeBose’s 2015 employment contract
that was erroneously excluded by the District Court, (ECF-165,
pg. 64-65). The document, labeled “Contract”, specifies a 12month definite term of employment. Id. The existence of the
employment contract clearly disputed the statement by
USFBOT’s representative and Wilcox that USFBOT stopped
issuing written employment agreements in 2005, [ECF-78]; [See
Hearing Transcripts, ECF-222, 223]. The Appellate Court opined
that DeBose had not supported her disparate impact allegations
with any statistical evidence, (App. A-l, pg. 9, M 1], DeBose

23

produced an expert opinion and statistical data and analysis at
summary judgment, (ECF-188, pgs. 120-128, 178-180), that
showed the adverse impact ratio for Petitioner’s classification is
less than 80%, according to the four-fifths rule—evidence that the
employment practice(s) of USFBOT is discriminatory towards the
Petitioner’s classification. Black Females represent 1.5% of the
population and have an adverse impact rating of 3%-generally
regarded as evidence of adverse impact. DeBose also submitted
an Affidavit, (ECF-174, pg. 32). The Panel’s statement is directly
contradicted by the trial judge’s order, (App. A-17, pgs. 22-23),
where the District Court discusses the statistical evidence as
“unauthenticated”, though clearly supported by the expert’s and
the Petitioner’s affidavits. The District Court concluded, “Given,
the Plaintiff's failure to support her disparate impact claims with
admissible evidence in response to summary judgment, USF is
entitled to summary judgment on Counts V and VI of the TAC”
The District Court’s strict requirement for admissible evidence at
summary judgment was also improper. The standard is not
whether the evidence at the summary judgment stage would
be admissible at trial—it is whether it could be presented at trial
in an admissible form. See Rule 56(c)(2).
The Appellate Court stated DeBose did not engage in any
protected activity until after learning of Hamilton’s promotion,
(App. A-l, pg. 9, If 2). DeBose filed the August 14, 2015 deposition
of Dosal, in which he testified that DeBose complained to him
about possible discrimination in June 2014, (ECF-181, pg. 19,
#42:13-19). Dosal testified likewise at trial, [9/11/18 153:14-20],
The Appellate Court overlooked the June qualifying event
because it failed to review DeBose’s briefs on appeal and consider
the record as a whole. The Appellate Court also overlooked
evidence in the record that the Ellucian assessment, which took
place in April of 2015. Here, the Panel stated the assessment was
planned prior to DeBose’s first complaint, (App. A-l, pg. 16,1f 1).
The Panel disregarded that on February 4, 2015, Dosal had
already taken one adverse action against DeBose in issuing
DeBose a first-time, written reprimand for unprofessionalism, the
same day that DeBose filed a TRO/preliminary injunction against
USFBOT. The timing and circumstances (that same day)
surrounding Dosal’s request for an urgent PIA to write the
Ellucian Report through Carrie Garcia could be perceived as
retaliatory, (ECF-187, pgs. 105-106; see also pgs. 107-142), as
noted by the District Court: Specifically, given the close temporal
proximity between DeBose's EEOC complaint and USF's decision

I

24

to engage Ellucian..., a reasonable jury could find that USF's
actions were retaliatory, (App. A-17, pages 20, 21).
The Panel surmised incorrectly and wrote a faulty narrative
that DeBose’s discrimination and retaliation claims stemmed
from the written reprimand she received after insulting a
coworker, (App. A-l, pg. 9). The record discloses a multiplicity of
Emails, [Exhibits #ECF-70 -82], submitted for the jury’s review
to show that the “little girl” allegation was a complete fabrication.
Dosal asked for and received Mootoo’s help after DeBose’s
complaint of discrimination, (ECF-187, passim); [9/12/18 138:111; 9/12/18 191:23-25]. Dosal’s testimony affirmed that he
solicited Mootoo to file a complaint against DeBose, [9/12/18
159:15-25; 160:1-21] and that he asked Mootoo to get others to
corroborate her story, [9/12/18 156:21-25, 157:1-25, 158:14-24],
Dosal testified that he did not inform DeBose of Mootoo’s
complaint, [9/12/18 153:17-24; 9/13/18 74:7-8], though he did
inform Wilcox and others, [9/12/18 22:15-18; 9/13/18 74:4-6], and
Wilcox strongly supported reprimanding DeBose, [9/17/18 108:1322], The jury saw evidence of the emails exchanged between
Dosal, Mootoo, and others, [Exhibit 70-75]. Dosal and Wilcox
admitted that they had not heard DeBose use terms like “little
girl,” [9/12/18 94:21-25, 95:1-16; 9/17/18 122:23-24; 9/18/18 95:1Dosal testified that DeBose’s communications were
4]professional. [9/12/18 95:2-16, 169:14-18; 9/13/18 6:7-14], The
first occurrence written reprimand violated USFBOTs
progressive discipline policy, (ECF-188, pgs. 84-95). Most
importantly, the Panel did not review the whole of the record to
note that Dosal testified the reprimand was mere pretext:
Q Did you testify that Ms. DeBose was going to be
reprimanded even if the allegation of the "little girl"
comment did not exist?
A Yes.” [9/13/18 17:10—13]
Q Do you believe that she deserved to get the reprimand
with no opportunity for due process?
A Yes. [9/12/18 174:3-5]
The Appellate Court stated DeBose did not present any
evidence that she had in fact received such an offer, such as an
affidavit,. (App. A-l, pg. 10, f 3). DeBose submitted several text
messages, phone logs, and emails between her and Colom to show
that she was offered and accepted a job at UNF in the period from
May 20-21, 2015. DeBose also submitted evidence to show that
on May 26, 2015, Wilcox called and spoke to Traynham for 6

25

minutes, (ECF-188, pg. 118-119), and gave DeBose a negative
reference, in violation of USF policy, (ECF-188, pg. 167-170);
[9/19/18 pgs. 38:13-15, 42:11-24]. DeBose produced evidence that
immediately after Wilcox’s call with Traynham, Colom called and
texted DeBose, rescinding the job. (ECF-188, pgs. 103-104, 113117). The District Court and ultimately the jury both found the
timing and the circumstances retaliatory, (App. A-17, pg. 21). The
Panel claimed the existence of “undisputed” evidence in the
record that Hamilton was highly qualified for the position to
make DeBose’s failure-to-promote claim fail. DeBose presented
evidence that begged the question why Hamilton was promoted
in secret, without a search and thus without competition,
[9/11/18, pg. 173:9-25]. DeBose, better qualified, trained and
onboarded Dosal, a history professor, to his position and wrote
many times on Dosal’s behalf. [9/12/18 pgs. 54:1-2; 58:1-5],
DeBose’s performance was exemplary and she was commended in
her reviews for collaboration, gaining consensus, and
professionalism. [9/12/18 pg. 23:12-15], It is not inconceivable
that Dosal and Wilcox retaliated, making the decision to
disqualify DeBose from consideration for the AVP EPM position,
because she complained of discrimination, [9/11/18 pg. 173:9-25].
DeBose presented evidence that Hamilton knew about the
discrimination, particularly from Wilcox, and decided that
DeBose should go it alone.
The Appellate Court made other incorrect conclusions of law
and fact—that DeBose failed to provide adequate information to
tax costs, (App. A-l). The Clerk taxed costs of approximately
$35,000 for Petitioner. USFBOT asked for review by the District
Court, (ECF-521, 546), denied without prejudice, until a date
certain. The District Court failed to Order USFBOT to pay the
costs to DeBose after the expiry date. The Appellate Court
misapprehended that DeBose requested fees to pay her former
counsel for the first time on appeal, (App. A-l). DeBose requested
the fees/costs timely. DeBose’s request for reconsideration was
also timely. However, the District Court misapplied Rule 15
“relates back” to deny DeBose the fees/costs paid to her former
counsel noted in her initial request, (See App. A-7). The Appellate
Court overlooked that the District Court stated at the end of trial
that DeBose, pro se, could herself request attorney fees—though
DeBose expressed her knowledge of Eleventh Circuit rule holding
a contrary view, [9/26/18, pg. 12:18-23], The Appellate Court
failed to note that DeBose, the verdict winner, received nothing
for her disparate treatment discrimination claim. The District
Court did not grant declaratory relief, injunctive relief, nor

26

attorney's fees and costs. The Appellate Court improperly found
that DeBose’s motion for new trial was untimely, expecting that
DeBose, as the verdict winner, would request a new trial within
28 days of the verdict, after USFBOTs failed part-A JMOLs,
failed motion to alter/amend the judgment, and part-B JMOL.
The Panel misconstrued that DeBose raised the issue about the
District Court's refusal to continue the trial and/or reopen
discovery, for the first time on appeal. The issues were preserved
at trial and argued in DeBose’s motion for new trial.
3. Whether a verdict winner must file a timely motion for a new
trial after entry of judgment in order to raise new-trial
arguments and preserve a sufficiency-of-the-evidence challenge
on appeal, after both parties moved for judgment as a matter of
law under Rule 50(a) before submission of the case to the jury,
but only the opposing party renewed that motion under Rule
50(b) after the jury’s verdict, and was granted JMOL and a
conditional new trial, but the original prevailing party was
denied a new trial under Rule 59.
The Eleventh Circuit Panel held that, notwithstanding Federal
Rule of Civil Procedure 50(d), DeBose, the verdict winner, failed
to move for a new trial timely, following the verdict, in order to
preserve new trial arguments on appeal, (App. A-l). The Panel
stated that “to the extent that DeBose challenged the jury's
discrimination verdict,” her motion for a new trial was untimely.
Thus, Appellate Court declined to consider DeBose’s preserved
new trial and sufficiency-of-the-evidence arguments because
DeBose, the verdict winner for nearly five months after entry of
the judgment, did not file a motion for new trial within the 28-day
time frame provided for in Federal Rule of Civil Procedure 59(b),
of the judgment entered on October 2, 2018, (App. A-15). The
Panel also noted that DeBose, still the verdict winner, did not file
a motion for new trial within 28 days of the Amended Judgment
on October 5, 2018, (App. A-13); rather, DeBose posed a challenge
on February 24, 2019, within the requisite 28-day timeframe, of
the Second Amended Judgment, (App. A-8), which rendered that
DeBose was no longer the prevailing party on her retaliation
claim. The Panel used this reasoning to justify its failure to
review DeBose’s new trial motion on the merits entirely—with
regard to the sufficiency of the evidence on her retaliation claim,
the structural issues that unfairly prejudiced her in the
proceedings, and the manifest injustice that resulted from the

27

Respondent’s misconduct that should have permitted a new trial
under Rule 59 and/or Rule 60(b)(3).13 The Panel’s reasoning
defies logic. First, the verdict was not split; DeBose was the
prevailing party on both her discrimination and retaliation
claims. With regard to the discrimination claim, the “same
decision” defense precluded DeBose from taking any damages.
Secondly, DeBose objected to the “same decision” verdict
instruction and contended in her new trial motion that the jury
would have responded “No” to the question on the verdict form,
had the instructions or District Court clarified that the “same
decision” could not be “any reason at all” but a lawful or legitimate
reason. DeBose would argue that USFBOT was motivated by
discriminatory and other unlawful reasons. The District Court’s
ruling, though factually incorrect, stated that DeBose never
objected to any of the Court’s retaliation instructions or requested
different or additional instructions, though provided three
opportunities to do so, (App. A-6). The fact is, DeBose did in fact
file an objection to the jury instructions. (See ECF-409, 440, and
460). Petitioner timely appealed the District Court’s denial of her
motion for new trial. While the District Court raised questions
about the sufficiency of the evidence, the timeliness of DeBose’s
motion was not challenged.
On a motion for new trial, the Eleventh Circuit emphasizes the
District Court’s “duty to safeguard the role of the jury” and notes
the “exacting” standard of review for a district court’s denial of a

13 All of Petitioner’s witnesses were excluded based on the failure of DeBose’s former counsels to
make Rule 26 disclosures. Petitioner was not informed at the withdrawal of her counsels but told by
the magistrate at the pretrial conference on August 18, 2018, before trial. The District Court
declined Petitioner’s request to move the trial back to its original date. USFBOT filed a motion for
leave to take videotaped deposition of Andrea Diamond, De Bene Esse, denied, which Petitioner
opposed. However, the District Court declined to enforce Petitioner’s subpoenas of Diamond and also
Colom and Traynham. The District Court allowed Diamond’s deposition to be submitted to the jury,
a poor substitute for having direct testimony from this key witness. The District Court excluded
Exhibit [#216], which established Diamond debriefed with Wilcox (i.e. the Provost) and would not
allow examination of Wilcox about this exhibit, on grounds that while Wilcox appeared for trial,
Diamond was not available to testify. The District Court excluded Exhibit [#211], an email
forwarded to Wilcox by Dosal; Lewis states that she had a conflict and could not meet with Diamond.
Petitioner sought to admit the email to show that Wilcox received the email and therefore had
information that Diamond’s account of Lewis’s absence in the Ellucian Report was contested. There
was no evidence that DeBose kept Lewis from the meeting. These documents should have been
admitted as either non-hearsay or hearsay exceptions. The District Court erred in failing to give an
Adverse Inference jury instruction, as moved by DeBose, concerning the stipulation by the
magistrate: (1) there was a duty to preserve; (2) the defendant USFBOT was on notice; and (3)
“there was a destruction of documents that may have been relevant to the litigation ...” [2/8/17
Hearing, ECF-103, pg. 39:17-20],

28

motion for a new trial. Rabun v. Kimberly-Clark Corp., 678 F.2d
1053, 1060 (11th Cir. 1982). On a motion for a new trial, the trial
judge is free to weigh the evidence favoring both the jury verdict
and the moving party. Id. As far as the motion for a new trial, the
trial judge can grant a new trial if [s]he believes the verdict is
contrary to the weight of the evidence. See, e.g., Montgomery
Ward Co. v. Duncan, 311 U.S. 243,61 S.Ct. 189,85 L.Ed.
147 (1940); Marsh v. Illinois Central Rail Co., 175 F.2d 498 (5th
Cir. 1949). However, the Eleventh Circuit recognizes the
deferential abuse of discretion standard as particularly
appropriate where a new trial is denied and the jury’s verdict is
left undisturbed. Id. The Eleventh Circuit reviews a district
court's denial of a motion for a new trial for "a clear abuse of
discretion." Wolff v. Allstate Life Ins. Co., 985 F.2d 1524, 1528
(11th Cir. 1993).
Federal Rule of Civil Procedure 50(a)(1) provides in pertinent
part that, “[i]f during a trial by jury a party has been fully heard
on an issue and there is no legally sufficient evidentiary basis for
a reasonable jury to find for that party on that issue, the court
may determine the issue against that party and may grant a
motion for judgment as a matter of law against that party.” A
motion under Rule 50(a) may be made “at any time before
submission of the case to the jury.” Fed. R. Civ. P. 50(a)(2). The
Respondent and Petitioner both moved for JMOL, denied.
Federal Rule of Civil Procedure 50(b) states: If, for any reason,
the court does not grant a motion for judgment as a matter of law
made at the close of all the evidence, the court is considered to
have submitted the action to the jury subject to the court’s later
deciding the legal questions raised by the motion. The movant
may renew its request for judgment as a matter of law by filing a
motion no later than 28 days after entry of judgment—and may
alternatively request a new trial or join a motion for a new trial
under Rule 59. In ruling on a renewed motion, the court may: (1)
if a verdict was returned: (A) allow the judgment to stand; (B)
order a new trial, or (C) direct entry of judgment as a matter of
law. Here, a verdict was returned in DeBose’s favor and against
USFBOT on Petitioner’s disparate treatment discrimination
claim and retaliation. USFBOT did not poll the jury or appeal the
verdict but renewed its JMOL on October 29, 2018. The District
Court ruled on the motion, granting the JMOL, on February 14,
2019.
In construing a predecessor version of Rule 50(b), this Court
held that “in the absence of a motion for judgment
notwithstanding the verdict made in the trial court within ten

29

days after reception of a verdict the ride forbids the trial judge or
an appellate court to enter such a judgment.” Johnson v. New
York, New Haven & Hartford R.R., 344 U.S. 48, 50 (1952); see id.
at 50 n.l (reproducing text of Rule 50(b) in effect at that time).
Rule 50(c) governs the case where a trial court has granted a
motion for judgment n. o. v. Rule 50(c)(1) explains that, if the
verdict loser, USFBOT, has joined a motion for new trial with its
motion for judgment n. o. v., the trial judge should rule
conditionally on the new trial motion when [s]he grants
judgment n. o. v. If [s]he conditionally grants a new trial, and if
the court of appeals reverses his grant of judgment n. o. v., Rule
50(c)(1) provides that "the new trial shall proceed unless the
appellate court has otherwise ordered." The District Court
granted USFBOT a conditional new trial. "Subdivision (c)(2) is a
reminder that the verdict-winner is entitled, even after entry of
judgment n. o. v. against her, to move for a new trial in the usual
course." 31 F.R.D. 646. The rule does not remotely indicate that
the verdict winner loses this right to move for a new trial if the
trial court’s entry of judgment n. o. v. against her is on direction
by the appellate court or its own initiative. DeBose file a motion
for new trial, which the District Court denied. The Eleventh
Circuit affirmed the District Court’s Orders.
With regard to the Petitioner’s New Trial Motion, the Court of
Appeals has effectively deprived the verdict winner of the chance
to move for a new trial. Rule 50(c)(2) and Rule 50(d) expressly
preserve to the party who prevailed in the district court the right
to urge a new trial should the jury's verdict be set aside on appeal.
Though the District Court was not likewise obliged, the Appellate
Court was required to view the evidence in the light most
favorable to DeBose, the verdict winner and draw all reasonable
inferences in her favor. See Hofkin v. Provident Life Accident Ins.
Co., 81 F.3d 365, 369 (3d Cir. 1996); Frieze v. Boatmen's Bank of
Belton, 950 F.2d 538, 540 (8th Cir. 1991). All inferences by the
District Court were favorable to USFBOT. For instance, the
District Court in its denial order stated: “DeBose introduced no
evidence that Wilcox was aware of her informal complaint to Dosal
of “possible discrimination” (App. 6, pgs. 6-10). This misstates
the record. The jury heard Dosal testify, admitting that he had
shared the information with Wilcox.
Q Did you testify yesterday that she reported to you in
June 2014 that she felt that she was being discriminated
against?

30

A Let me clarify. You're asking if I reported that to the
Provost? [9/12/18 23:16-25]
Q I'm asking did you admit that in testimony yesterday.
A Yes.
Q Did you share Angela Debose's concerns with the
Provost?
AI believe so, yes. [9/12/18 24:1-5]
Petitioner contends that a new trial was merited in the interest of
justice.
CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should
be granted.
Submitted February 6th. 2021

Respect:
Angeli

DeBose, Petitioner

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of the foregoing has been served to
all counsels of record this 6th day of February 2021.

Angela W. DeBose, Petitioner

